COST EFFECTIVENESS OF THE NATIONAL INSURANCE
                 PROGRAM



              Audit Report No. D99-039
                September 20, 1999




              OFFICE OF AUDITS

        OFFICE OF INSPECTOR GENERAL
Federal Deposit Insurance Corporation                                                             Office of Audits
Dallas, Texas 75201                                                                  0ffice of Inspector General



   DATE:              September 20, 1999

   TO:                A.J. Felton, Deputy Director
                      Field Operations Branch
                      Division of Resolutions and Receiverships




   FROM:              Shirley C. Ward
                      Regional Director
                      Office of Inspector General

   SUBJECT:           Cost Effectiveness of the National Insurance Program
                      (Audit Report No. D99-039)

   This report presents the results of the Federal Deposit Insurance Corporation (FDIC) Office
   of Inspector General’s (OIG) audit of the cost effectiveness of the National Insurance
   Program. Generally, we found that the program was well structured and protected the FDIC
   from extraordinary loss. However, we believe there are opportunities for cost savings in the
   areas of insurance premiums and broker fees, and for improvements in program
   management.

   BACKGROUND

   In August 1992, as part of the National Insurance Program, FDIC managers procured
   commercial insurance coverage for approximately $4.5 billion in owned real estate (ORE)
   and certain credit assets. The total value of assets insured by the program dropped to about
   $100 million as of September 30, 1998, and continues to decline in value. The FDIC's
   Division of Resolutions and Receiverships (DRR) is responsible for managing the program
   in a timely and efficient manner. The program promulgates policies and procedures for the
   placement of insurance on receivership assets and corporate-purchased program assets
   resulting from financial institution closings.

   The program, according to the FDIC's Strategic Plan 1998-99 and Beyond, is managed by
   the National Insurance Center (Center), which ". . . is responsible for obtaining insurance
   coverage to limit the financial loss to Receiverships and the Corporation as a result of
   physical damage and liability claims occurring on Receivership assets." The Center is also
   responsible for managing the Corporation’s risk of potential financial loss related to these
   assets. Since 1994, DRR’s management control plan has identified the activities of the
   Center as being predominantly a high-risk area. The plan also indicates that one of the
control objectives for the Center is to track insured losses and asset information to evaluate
the cost effectiveness of the FDIC coverage.

DRR’s Washington office established the National Insurance Center in Dallas, Texas, in
August 1992. As stated in DRR's Directive 7500.34 dated October 31, 1994, National
Insurance Program, Center personnel are responsible for obtaining liability and property
insurance, processing claims, tracking losses to evaluate the cost/benefit of the policy, and
paying contractually deductible amounts on liability claims to the insurance carrier. Center
personnel are responsible for providing to Northeast Service Center (NESC) and Field
Operations Branch (FOB) account officers guidance and training on various insurance-
related matters. The account officers are responsible for managing and liquidating
receivership assets. Additionally, the Center maintains the FDIC insurance system of record,
the National Insurance System (NIS), and Center manuals. Program objectives, as listed in
the Center’s National Insurance Manual, are to purchase insurance coverage in the most
cost-effective manner and to track insured losses in order to evaluate the cost/benefit of the
policy.

Each account officer has responsibility for ensuring that liquidation assets are properly
protected and covered. The account officers are responsible for providing all necessary asset
information to the site coordinator whenever there is a change in asset status, including
actions for the addition or deletion of an asset. Account officers are also responsible for
determining the insurable value of each asset in which the FDIC has an insurable interest and
identifying loss situations for FDIC receivership and corporate-purchased assets.

To fulfill its objective of obtaining insurance coverage in the most cost-effective manner, the
FDIC entered into a contract with its current insurance broker, Henley, Williams and
Associates (Henley-Williams), in August 1992. FDIC entered into a new contract with
Henley-Williams in September 1995. The new contract was for 1 year and allowed for two
contract extensions for up to 2 years each. The insurance broker’s main duties under the
contracts were to obtain the most cost-effective insurance and provide claim management
services. The broker is responsible for obtaining insurance coverage including liability,
property, difference in conditions, boiler and machinery, and other miscellaneous coverage.1
In the 1995 contract, the broker was engaged at a flat fee of $240,000 per year2 to complete
these fundamental program tasks.

1
  Liability insurance pays proceeds that the FDIC becomes legally obligated to pay as the result of injury to
another or damage to property of another. Umbrella insurance provides additional limits of coverage over
the primary liability policy. Hazard (Property) insurance protects the financial interest of the FDIC in the
event the property is damaged by fire, rain, wind, vandalism, or flood. Difference in Conditions insurance
provides additional limits of coverage on properties damaged by flood or earthquake. Boiler and
Machinery insurance protects the financial interest of the FDIC in the event of equipment failures that
result in damage to FDIC property or the property of others. Most assets were insured subject to a $10,000
minimum insured value.
2
  In the original contract, the broker’s compensation was bundled with the premium payments and was not
paid separately.



                                                     2
OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our audit was to evaluate the cost effectiveness of the FDIC’s insurance
program for protecting receiverships and the Corporation from potential financial loss as
a result of either physical damage to assets or third-party liability claims. Our audit scope
included the inception of the program in 1992 through the most recently completed
program year of October 1, 1997 through September 30, 1998.

We interviewed Center personnel and site coordinators at the NESC in Hartford,
Connecticut, and FOB in Dallas, Texas, to understand the operation of the insurance
program. We reviewed the Asset Disposition Manual and National Insurance Manual to
understand DRR guidance for asset insurance. In addition, we reviewed program goals in
the Strategic Plan, risks in the management control plan, and testing of accountability
units under the Chief Financial Officers Act.

We reviewed contracts with the insurance broker, the insurance consultant (Aon
Specialty Group), and the Resolution Trust Corporation (RTC) claims adjuster for its
self-insured program to obtain information on compensation and services being rendered
by contractors. We analyzed contractor summary reports to understand tasks performed
and review suggestions offered to assist program managers.

We reviewed program details for 3 years, from October 1, 1995 through September 30,
1998. Specifically, we evaluated asset values, premiums, deductibles,3 carrier losses, and
broker fees to determine the total program expenditures and carrier covered losses by
each category of insurance.

Further, we randomly sampled 30 assets with a total insured value of $2.7 million from
the November 18, 1998 NIS database of 805 assets with a total insured value of
$50.1 million. We assessed the adequacy and accuracy of coverage as of January 29,
1999 for the 30 assets in our sample. The NESC managed 21 of the 30 assets and the
FOB managed the other 9 assets. We also reviewed condominium and cooperative unit
assets and discovered assets4 in the NIS database of insured assets at November 18, 1998
and March 3, 1999 to determine the significance of reporting errors to the population of
assets.

We conducted the audit from November 9, 1998 to April 14, 1999 in accordance with
generally accepted government auditing standards. We did not perform a comprehensive
review of internal controls relating to the program because we concluded that the audit

3
  A deductible is the amount of the loss for which the insured is responsible. A deductible is usually
expressed as a percentage of the asset’s value or a fixed amount. The FDIC’s deductible is a fixed amount
per policy but varies in amount by the type of coverage.
4
  A discovered asset is an asset for which the FDIC did not previously assume that it held title or
responsibility. A discovered asset differs from other liquidation assets in that until some notification is
received of receivership ownership, the FDIC does not have a record of the asset.



                                                       3
objectives could be met more effectively by conducting substantive testing rather than by
placing reliance on internal controls.

RESULTS OF AUDIT

The Center has effectively provided support to DRR in placing insurance coverage and
assisted DRR in processing allowable claims. Generally, the program was well structured
and protected the FDIC from extraordinary loss. However, this protection has been at a
substantial cost. By maintaining the originally chosen course of action and not revisiting its
earlier insurance decisions, we believe Center management lost opportunities for
reevaluating insurance options and contract costs. Specifically, over the past 3 years, the
FDIC has paid $5,495,000 for premiums, deductibles, and broker fees, but had only $70,000
in losses covered by the insurance carrier. Additionally, Center management did not initiate
efforts to renegotiate the broker fee in a timely manner and may have forfeited cost savings
opportunities of approximately $100,000. Finally, we found that the inaccurate and
inconsistent recording of assets on the NIS caused an overpayment of premiums, resulted in
forfeited loss recovery opportunities, and negatively affected projected program
performance.

The overall success of the insurance program depends upon the combined sustained efforts
of many individuals in DRR operations and real estate management. We believe the
program could be more cost-effective with improved program management and data
reliability. We believe improvements can be made in three areas: acquiring insurance in a
cost-effective manner, tracking and analyzing insured losses in order to evaluate the
cost/benefit of the policy, and verifying data accuracy.

Since its inception in August 1992, the program had operated predominately as a commercial
insurance program with moderate elements of non-insurance in the form of policy
deductibles. This program choice continued through the conclusion of our audit in April
1999 in spite of significant economic changes that occurred from 1995 to 1998 when the
FDIC experienced a dramatic 85 percent decrease in the book value of its owned real estate
assets. The decline in assets greatly limited the potential for losses because there were no
longer great concentrations of risk in any single area. As such, the risk to the Corporation
changed substantially, and corresponding opportunities existed for insurance-related cost
savings. Nevertheless, Center managers, who thoroughly analyzed insurance data only once
since the inception of the program in 1992, did not take advantage of this changing situation
and did not act on existing options to reevaluate the program. Additionally, Center managers
did not follow advice from the insurance consultant Aon and its own FDIC contracting staff
to promptly and appropriately renegotiate brokers fees commensurate with the level of
services needed for such a reduced asset base.

Also, the Center is responsible for ensuring that the program operates responsibly and
efficiently. Tracking liability claim losses is important in order to evaluate the cost/benefit of
the policy. Although the insurance broker maintained loss data, Center management did not
have current loss data on file. Moreover, because every asset in which the FDIC has an
insurable interest is part of the program, data accuracy for every asset is critical. We found a


                                                4
23 percent error rate in our sample of 30 assets and systemic insurance valuation problems
for condominium units, cooperative units, and discovered assets. We believe that if FDIC
management were to improve data accuracy, the use of reliable information would foster
additional cost savings.

OPPORTUNITIES EXIST FOR IMPROVED PROGRAM MANAGEMENT

We believe that opportunities exist for improved program management. Specifically,
management could improve the program by fully pursuing insurance alternatives, tracking
and analyzing insurance data, and renegotiating existing broker fees. There have been
changes in the FDIC asset base, total insurance values, claim losses, and insurance costs.
Losses have been slightly over 1 percent of the total outlay for insurance coverage for the
period of October 1, 1995 through September 30, 1998 (the last period for which final cost
data were available). During the same period, the insured value of assets protected under the
program and premiums declined 86 percent and 84 percent, respectively. Additionally,
broker fees for the 1998/1999 program year are excessive at over 60 percent of estimated
total premiums rather than the industry average of 10 percent to 20 percent.

Insurance Program Alternatives Were Not Fully Pursued

Integral elements of an insurance program are insured losses, support services, premium
costs, deductibles, and an entity’s culture for risk management. When the program was
established in August 1992, the FDIC chose to establish a commercial insurance
program, rather than a self-insured or pay-losses-as-incurred program.5 The FDIC
emphasized protecting the receiverships and Corporation from extraordinary and
catastrophic losses, but what constitutes a catastrophic loss had not been defined by
management. As a result, instead of just protecting the FDIC from extraordinary
financial losses, the Center attempted to protect the FDIC from all losses.

Over the past 3 years, the FDIC has paid $5,495,000 for loss protection and broker fees
while the insurance carrier paid $70,000 in covered losses. As such, the Center has
protected the FDIC from financial losses but at a substantial cost. Although we do not
believe Center management reacted timely to changing program data trends, thereby
missing certain opportunities for cost savings, the Center, through its Aon contract, did
start a study to address program changes in February 1999. As part of this study, Aon is
evaluating whether the FDIC should partially or fully self-insure the property and liability
loss risks of FDIC assets.

Over 4 years have passed since the Center last conducted a comprehensive study of the
program. As part of a January 1995 RTC/FDIC Best Practices review, the FDIC
contracted with Aon to provide the FDIC with assistance in choosing the most cost-

5
  Self-insurance incorporates a conscious decision to accept a given type and amount of risk and includes a
method for actually financing that risk through other than commercial insurance. Self-insured exposures
may be funded either from operations or from special reserves. Paying losses as incurred or being non-
insured is the conscious acceptance of loss exposure through deductibles, co-insurance alternatives or
simply not purchasing commercial insurance at all.


                                                     5
effective, practical mix of insurance and self-insurance alternatives. The study examined
the program’s performance and addressed two possible risk-funding alternatives:
continuing a commercial insurance program with higher deductibles6 and developing a
self-insurance program. As seen in table 1, Aon determined which insurance coverages
should be considered for higher deductibles or self-insurance:

                  Table 1: Aon Insurance Study Considerations
                   Coverage            Higher Deductible Self-Insurance
                 ORE Property                  Yes                   Yes
             Forced Place Property             Yes                   Yes
                 ORE Liability                 Yes                   Yes
            Difference In Conditions           Yes                    No
             Boiler and Machinery               No                    No
               Umbrella Liability              N/A                    No
         Source: January 4, 1995 Aon Specialty Group report entitled Study of Current
         Operation and Cost/Benefit Analysis, National Insurance Program, FDIC.

Aon considered the costs of commercially purchased insurance including premiums,
deductible payments, and staff costs. Loss history and forecasts were developed using asset
and insured value data, geographical distribution of properties, and length of time for which
loss information was captured. The report concluded that a self-insurance program would be
more cost-effective but had greater elements of risk than the FDIC was willing to accept at
that time. Therefore, the FDIC continued to obtain commercial insurance in 1995.

Aon’s report was evaluated in the March 1995 Best Practices Review of Risk
Management. The Best Practices Review of Risk Management, prepared by the Director
of DRR and other DRR managers, suggested that annual reviews of the insurance
program be conducted to evaluate alternative risk funding and management techniques.
A mechanism was established in the July 1996 contract with Aon to perform these
program reviews semiannually. According to the contract, the FDIC could request four
services requiring Aon to make program recommendations:

    (1) annually match technical requirements for solicited brokerage and insurance
        coverage to DRR’s needs for a cost-effective risk management program,
    (2) semiannually make suggestions regarding self-insured and purchased insurance
        risk management program options,
    (3) semiannually collect premium and loss statistical data for analyzing the
        cost/benefit of the program, and
    (4) develop insurance training and manuals used for the program.

We found that the only services the Center requested from Aon from July 1996 through
February 1999 were for annual insurance coverage-related recommendations (contract
service number 1 above). Center management declined to exercise the other three
contract services. We believe that if Center management had exercised contract service

6
  Policy deductibles are elements of non-insured risk funding: lower deductibles yield less non-insured risk
but often result in higher premiums, while higher deductibles usually result in a greater degree of non-
insured risk that can be offset by lower premiums.


                                                     6
number 2 and used it to support the program’s annual expenditure case, senior
management would have had sufficient information to make critical decisions regarding
alternative program options. Instead, annual insurance expenditure cases for program
funding since October 1995 have listed three program alternatives--use outside carriers,
self-insurance, and paying losses as incurred--without the benefit of a study to support the
case recommendation to use an outside carrier. No discussion of the advantages or
disadvantages of the three program alternatives were included in the cases, only the
justification for choosing one carrier over another. Also, disclosure of loss history
information in the expenditure cases was not detailed. Without the benefit of an
evaluation of different program alternatives or relevant information on loss history,
sufficient information was not available for FDIC senior managers to measure program
performance or concur with case recommendations to obtain commercial insurance
coverage.

We analyzed all reports provided by the Center that contained any analysis of insurable
assets affecting program years October 1995 through September 1998 to understand the
scope of the reports and determine whether they addressed program alternatives. We
found reports related to the annual recommendation for selecting a carrier, but
alternatives for self-insurance, such as paying losses as incurred, were not discussed.7
Based on the insurance consultant and broker advice, the FDIC chose the carrier with the
most competitive rates, eliminated one type of coverage to achieve cost savings, and
lowered the deductible levels. While these insurance changes facilitated cost savings in
the commercial insurance program, we could not find evidence that similar
considerations were given to all program alternatives.

Insurance Data Were Not Effectively Tracked and Analyzed

The effective tracking and analysis of insurance data enables management to make the most
prudent business decisions for the insurance program. Important information affecting the
program can be obtained from monitoring and evaluating changes to asset values, insured
values, premiums, deductibles, and carrier losses. Center managers recognized the
importance of analyzing this insurance data when they engaged Aon to conduct the program
evaluation as part of the FDIC/RTC best practices initiative in January 1995.

Because we did not find evidence of a similar analysis of program data since the January
1995 effort, we decided to perform our own analysis. We evaluated asset values, total
insured values, premiums, deductibles, carrier losses, and broker fees to determine the total
program expenditures and carrier covered losses by each category of insurance for the
program years following the report. We found a strong correlation between asset values8 and
7
  We also found a May 1996 report study that focused on whether to commercially insure or self-insure
RTC assets and assessed deductible levels. But the study did not include an updated evaluation of the
FDIC assets. Instead, only RTC assets were addressed. The study concluded that RTC assets should be
incorporated into the FDIC’s carrier-based insurance program.
8
  ORE assets were used to gauge the decline in the asset base, rather than all asset types, because assets
insured by the program are predominately ORE.



                                                      7
insured values. For the period of October 1, 1995 through September 30, 1998, the total
ORE assets in liquidation declined from $742 million to $114 million while the total insured
value of assets protected under the program declined from $350 million to $50 million.
We also found that the sharp decline in assets from 1995 through 1998 caused a
corresponding decline in premiums and claims over the same period. Figure 1 presents
the results of our analysis of premiums, loss claims, deductibles, and carrier paid losses
for the period of October 1, 1995 through September 30, 1998. Total carrier-paid losses
were less than 2 percent of the FDIC’s total paid premiums, and 87 percent of total claim
payments fell within the FDIC’s deductible limit. Even though there was a decline in
premiums from 1995 through 1998, FDIC paid a total of $4,300,000 in premiums and
$474,000 in claims over the period. The carrier paid losses of $70,0009 and had
established a $171,000 loss reserve for future claim settlements.

Figure 1: FDIC Premium and Deductible Payments Compared to Minimal Carrier
Payments (October 1, 1995 to September 30, 1998)




                               2.00
                               1.80
                               1.60
                               1.40
                               1.20
                               1.00
                               0.80
                               0.60
                               0.40
                               0.20
                               0.00
                                           95/96             96/97       97/98
                                                     Program Year

                                      FDIC Premium              FDIC Deductible
                                      Carrier Payments          Loss Reserves

Sources: FDIC Division of Finance disbursement reports, FDIC Loss Experience History reports from the
broker, Center claim files, DRR reports, and NIS data.


Although Center managers did not act on these indicators of a changing program with
poor cost/benefit ratios from 1995 through 1998, they started a study in February 1999

9
  As noted by Center personnel, the insurance carrier also absorbed legal and claim adjustment expenses as
part of claims settlement. Center personnel were not able to quantify these expenses because the carrier
does not release this information. As noted in the Aon reports, carriers anticipate that approximately
30 percent of premiums will go to administrative overhead expenses such as legal costs and claims
administration, so absorbing these costs is normal.


                                                         8
when they asked Aon to conduct a study of program changes and risk-funding
alternatives.

The 85 percent decrease in the book value of FDIC assets from 1995 to 1998 and a
further drop of almost 20 percent during the 3-month period ending March 3, 1999 have
reduced the potential for catastrophic property and liability losses. In addition, over
76 percent of the assets insured by the Center had insured values of less than $50,000 at
November 18, 1998. These factors indicate that the FDIC has a limited loss exposure and
that most of the losses will be small (probably within the FDIC’s deductible level
effective at the time of our review, which was $25,000 for property and $100,000 for
liability).10 During the 3 years under review, property losses dropped to zero by
September 30, 1997, and liability losses have declined steadily.

As illustrated in figure 2, we found that premiums significantly exceeded loss claims11 for
liability and property coverage, and most losses were within the deductible limits. All
liability losses were within the deductible limit and 78 percent of property losses fell
within the deductible limit. Also, carrier-paid claims were less than 2 percent of
premiums as well as less than 13 percent of all loss claims. The FDIC had not
experienced loss claims for difference in conditions, umbrella, or “other” coverage during
our review period.




10
   For the 1998/1999 program year the deductible levels were changed to $10,000 for property and $50,000
for liability.
11
     Loss claim amounts include a 12.5 percent handling fee charged by the carrier.


                                                      9
Figure 2: Total Premiums Paid, FDIC-Paid Loss Claim Deductibles, and
Carrier-Paid Claims for Each Type of Insurance Coverage (October 1, 1995 to
September 30, 1998)


                       2.00

                       1.80

                       1.60

                       1.40

                       1.20

                       1.00

                       0.80

                       0.60

                       0.40

                       0.20

                       0.00
                                                                     Diff. In
                                Property   Liability     Umbrella               Other
                                                                    Condition
          Premiums               1.821      1.053         0.888       0.476     0.064
          Deductible             0.253      0.221
          Carrier-Paid Claims    0.070

Sources: FDIC Division of Finance disbursement reports, FDIC Loss Experience History reports from the
broker, Center claim files, DRR reports, and NIS data.

Despite all the declines and the low loss-to-premium ratio, the Center did not conduct
periodic studies to assess whether the program in place at the time continued to meet the
FDIC's needs for risk management. Center officials were knowledgeable about the
FDIC's declining asset base, but we did not identify any effort by them to document and
evaluate asset trends or program changes. The Center's department head informed us that
he had decided the program should only be reevaluated every 3 years. He believed that
data trends must be assessed over the long term, not the short term. Center personnel
stated that large property losses from natural disasters occur infrequently, so loss amounts
can fluctuate dramatically from year to year. They also stated that a business decision
was made to insure assets based on high risk, high volume, and an initial concentration of
assets in traditional disaster areas such as Florida, California, and Texas. Nevertheless,




                                                    10
loss history information from the broker shows a consistent decline in losses since the
1992/1993 program year.12

Although the Center had raw program data on file or in its database, we did not find any
evidence of internal efforts to analyze trends and forecast future program needs. During
the audit, OIG staff created a database from a variety of sources and completed its own
analysis. For example, the OIG calculated deductibles and the 12.5 percent claim
handling fees and contacted the broker to obtain some current carrier loss data. These
data were not immediately available to us.

The Center had not tracked insured losses by policy to determine the cost effectiveness of
that type of policy. The FDIC’s contract with Aon included an option for the insurance
consultant to track premium and loss data, but the option was not exercised. However,
tracking losses is critical to evaluating the cost/benefit of the policy and program. Then,
in February 1999, the FDIC instructed Aon to formally review program options and make
a recommendation for the most cost-effective alternative. The study was required as part
of DRR’s 1999 DRR Strategic Plan. Aon estimates the study to cost between $13,000
and $17,000.

OIG has provided its schedules and charts of premiums, losses, and deductibles for the
various types of insurance and its analysis of this information to Aon and Center
management to assist in the study efforts. Aon completed its preliminary study on
June 17, 1999, but the final report will not be available until September 1999.

In the preliminary report, Aon stated that the National Insurance Program has changed so
significantly that carriers may take a completely different view of the program than they have
in the past. Aon suggested that various deductibles, per occurrence limits, and insurance
alternatives be submitted to insurance carriers for premium quotes. Only after quotations
have been received from insurance carriers and all options have been evaluated can FDIC
make an informed decision. However, using current premium rates and deductible levels,
Aon estimated that savings from a form of self-insurance could range from $200,000 to
$800,000 over 5 years, depending on the extent of the self insurance program. Additionally,
Aon noted that the current broker fee is excessive in light of the size of the FDIC asset
portfolio.




12
   The sharpest decrease in insured losses coincided with a change in insurance carriers from St. Paul to
Aetna/Travelers. We were informed by Center personnel that St. Paul did not charge the FDIC a deductible
and was not very aggressive at claim resolution, which led to a favorable loss history experience in the
early years of the program. Center personnel’s perception was that St. Paul readily paid for claims and did
not strongly defend against claimants. Aon noted in its analysis of the FDIC’s loss history experience with
St. Paul that most carriers would not enter into a contract where the contract terms contained such a high
probability for financial loss. Therefore, the FDIC should not expect to enter a similarly favorable contract
with other carriers.


                                                     11
Broker Fees Were Excessive

Broker fees have remained a constant $240,000 per year despite a steady decline in total
premiums paid on insured values from the 1995/1996 program year to the 1997/1998
program year. The $240,000 broker fee for the 1998/1999 program year is over
60 percent of estimated total premiums paid by the FDIC to cover assets in which the
FDIC has an insurable interest. Figure 3 depicts the program’s premium-to-broker-fee
relationships for the 3 program years of 1996 through 1999.

                           Figure 3: Relationship of Premiums
                                     and Broker Fees

                          2.00
                          1.80
                          1.60
                          1.40
                          1.20
                          1.00
                          0.80
                          0.60
                          0.40
                          0.20
                          0.00
                                  09/30/96    09/30/97    09/30/98     09/30/99
                                              End of Program Year

                                             Premiums        Broker Fee



Source: FDIC Division of Administration contracts, FDIC Division of Finance disbursement reports, and
NIS data.

The FDIC had an opportunity to renegotiate the broker fee for the 1998/1999 program year
but forfeited the opportunity, despite the advice of the insurance consultant and FDIC
contracting staff, by not starting the process early enough to comply with contract
requirements. The FDIC’s contract with the broker allowed that at the written request of
either party, the broker fees could be renegotiated to reflect changes in the portfolio or
services. Such fee re-negotiations were to commence no less than 30 days prior to the
expiration of the current contract term, which was September 30, 1998. The Division of
Administration contracting officer notified Center personnel 60 days prior to the expiration
of the contract that it seemed appropriate to renegotiate the brokerage fees. Also, in the
analysis of the 1997/1998 insurance program dated September 17, 1997, Aon recommended
that broker fees be reexamined due to the decrease in program size. In the analysis of the
1998/1999 insurance program dated September 4, 1998, Aon recommended a broker-fee-to-
premium ratio of 10 percent to 20 percent.

Center personnel met with the broker 7 days prior to the expiration of the contract to
renegotiate the fee. The Center’s efforts to renegotiate the fee were not successful because
they were not initiated within the time periods allowed for in the contract. Because estimated



                                                  12
premiums for 1997/1998 were $700,000, the broker fee for the program year would have
been $140,000 or less using Aon’s suggested ratio of 10 percent to 20 percent of premiums.
The FDIC did not attempt to renegotiate the broker fee within the contract-defined
timeframes, thus a cost savings opportunity was missed that may have resulted in broker fees
being reduced by $100,000 in the 1998/1999 program year using the Aon-suggested
20 percent broker fee ratio.

When asked about this situation, Center personnel acknowledged that they did not initiate the
broker re-negotiation efforts timely and could not quantify what an acceptable broker fee
would have been had the re-negotiations been successful. Center personnel expressed
concern that the broker would not accept a lower brokerage fee and would withdraw from
the contract, thereby causing FDIC to lose the good rates and services it was receiving.
Additionally, Center personnel thought there would be an extensive learning curve with a
new broker and the possibility of higher rates and unacceptable service. Center personnel
also stated that the broker should not be penalized for negotiating beneficial premium rates.
Because broker compensation would be tied to total premiums, the more successful the
broker is in negotiating lower premiums, the lower the compensation would be. (Although
we understand the Center’s position, the drop in total premiums was primarily due to a
decrease in the insured asset base rather than significant changes in premium rates.) Center
personnel notified us that rather than try to renegotiate the broker fee, they plan to re-bid the
broker contract after the self-insurance study from Aon is completed.

Recommendations

Based on the significant changes impacting the FDIC’s insurance program over the past
3 years, including declines in assets, insured values, premiums, and low loss ratios, we
support an all-inclusive cost/benefit study that addresses various risk management
options. The study should consider such factors as loss experience history, effect on
premium rates if certain coverages dropped, location and insured value of remaining
assets, deductible levels on purchased coverages, minimum insured values, and projected
asset levels. As such, we support the Center’s decision to study the program’s cost
effectiveness, and we have provided information to Aon, that we believe would be
helpful for this effort.

We recommend that the Deputy Director of the Field Operations Branch ensure that the
Center:

(1) Conduct a cost/benefit analysis of risk management to study the cost effectiveness of
    various insurance options, including: purchasing insurance or establishing forms of
    self-insurance or non-insurance. Risk management assessments should address
    factors such as loss experience, location and insured value of program assets, and
    premium rates available from the carrier marketplace.

(2) Improve tracking and verification of asset forecasts, premiums, losses, and deductible
    payments in relation to other insurance expenses. Analysis of such in-house data




                                               13
   would help Center officials react quickly to changing factors that affect the FDIC’s
   insurance program.

(3) Attempt to renegotiate a broker fee that is commensurate with industry standards (funds
    put to better use of $115,000, which represents DRR’s projected savings for the
    1999/2000 program year).

OPPORTUNITIES EXIST FOR IMPROVED NIS DATA RELIABILITY

We believe that opportunities exist for improved data reliability. Specifically, our audit
sample disclosed errors in NIS data and inconsistencies in recording certain asset types.
FDIC personnel rely on NIS data to make insurance program decisions, settle loss claims,
and pay insurance premiums. We found a 23 percent error rate in NIS data from our
random sample of 30 assets. We also found systemic problems in the way two categories
of assets are recorded on NIS. The inaccurate and inconsistent recording of assets on
NIS has caused an overpayment of premiums, resulted in forfeited loss recovery
opportunities, and negatively affected the ability of managers to project program
performance.

High Error Rate in NIS Data Sample

We reviewed 30 randomly sampled assets from a November 18, 1998 database of
805 assets and found that 7 (23 percent) of the sample assets were incorrectly recorded on
NIS as of January 18, 1999. Specifically, 5 of the 30 assets reviewed were not accurately
valued on NIS. The 5 assets, which had a total insured value of $1,223,000, were
overstated by $603,430, or 49 percent. Two other sample assets had been sold on
September 16, 1998 but were still listed as actively insured on NIS for $10,000 each as of
late January 1999. These errors caused the FDIC to overpay $4,680 in premiums out of a
total $20,402 for the 30 assets in the OIG’s sample.

Both the National Insurance Manual and Asset Disposition Manual provide guidance on
how insured value is to be derived for assets in which the FDIC has an insurable interest.
Total insured value is generally derived by subtracting the appraised value of land from
total appraised value of the asset. According to the National Insurance Manual, account
officers are responsible for ensuring the liquidation assets are properly protected and
covered in the event property value changes. If a new appraisal is received on an asset, it
is the account officer’s responsibility to ensure the updated value is entered into the NIS.
In addition, the account officer is responsible for initiating, through the site coordinator, a
cancellation of insurance coverage within 30 days of the date that the FDIC no longer has
an insurable interest in the asset.

FDIC’s site coordinators and account officer supervisors performed reconciliations
between NIS data and the ORE system, but the reconciliations only identified when an
asset was on one system but not on the other. The reconciliations did not consider
whether an asset was properly valued. Further, account officers were not routinely
verifying the total insured value of the assets, nor were their supervisors performing



                                              14
routine data integrity checks of an asset’s insured value. The problems with the NIS data
related to total insured value could leave the FDIC uninsured or underinsured in the event
of a loss or overinsured and paying too much in premiums. The Center, Aon, the
insurance broker, and the carriers rely on the accuracy of the NIS data to determine
premiums, settle losses, and make projections regarding the most prudent insurance
program.

Account officer supervisors have agreed to correct the data errors identified for the assets
in the OIG sample and commence running a report to assist in identifying data integrity
problems.

Condominium and Cooperative Units Were Inconsistently Recorded on NIS

Eleven of the assets in our initial sample of 30 were condominium and cooperative units
valued on NIS by the NESC site coordinators and account officers at a flat rate of $10,000
each. Two of the assets had appraised values of less than $10,000 and were valued at the
minimum insured value set by the insurer of $10,000. Although the other nine assets had
appraisals that indicated their value exceeded $10,000, they were recorded in NIS at the flat
$10,000 minimum coverage rate in accordance with NESC policy. We compared the NESC
policy for valuing condominium and cooperative units to the FOB policy and found
inconsistencies. While the NESC used the flat $10,000 minimum coverage for
condominium and cooperative unit assets, FOB personnel used appraised value. Based on
these discrepancies, we analyzed the entire population of condominium and cooperative units
as of November 18, 1998 and March 3, 1999. Table 2 provides details on the number of
condominium and cooperative units in the insured asset population.

              Table 2: Number of Condominium and Cooperative Units in NIS
                                                              11/18/98         03/03/99
Total Number of Active Assets in NIS                             805              658
Number of Condominium and Cooperative Units in NIS               257              233
Percentage of Condominium and Cooperative Units in NIS          32%              35%
Sources: OIG analysis of NIS active asset database.

The National Insurance Manual did not address how to value cooperative units. The
National Insurance Manual (pages 2B-6 through 8) provided guidance on how to value
condominium units under ideal circumstances but did not suggest the proper means of
valuing the units if key documentation could not be gathered. Although Center managers
had a goal in the 1998 Performance Measures to update the National Insurance Manual,
cooperative units were not addressed in the manual. Additionally, the rewritten manual
did not provide sufficient guidance to eliminate possible inconsistent valuation of
condominium units. Because condominium and cooperative units constitute a large
portion of the population of insured assets (35 percent as of March 3, 1999), the
inconsistent treatment of condominium and cooperative units could result in uninsured
losses and incorrect payment of premiums.



                                                      15
Center management has agreed to add guidance on cooperative units in the National
Insurance Manual. Center management also agreed to update guidance for condominium
units so that account officers have better information to assist them in placing insurance
coverage.

Recent Procedures For Insuring Discovered Assets Were Not Always Followed

While performing our tests on the sample of assets, we determined that National
Insurance Manual procedures for discovered assets13 were not always being followed at
the FOB. Specifically, FOB account officers were not always ensuring that discovered
assets were properly covered by insurance. As a result, the absence of insurance
coverage on these discovered assets left the FDIC vulnerable to financial loss.

According to the October 1998 revision of the National Insurance Manual, “Discovered
Assets are to be added to the NIS within 60 days of discovery. The discovery is to extend
back to either the date of acquisition or the date that Travelers/Aetna first provided
coverage (08/01/94).” Before issuing the revised National Insurance Manual, the FDIC
did not have any guidance on how to insure discovered assets.

The FOB identified a total of 107 discovered assets in 1998 and the first 2 months of
1999. However, of the 107 assets that FOB discovered in the 14 months ended
February 28, 1999, only 15 assets were back dated, as is now required by the manual. Of the
remaining 92 assets discovered during this period, 15 were not listed on NIS as having any
type of insurance coverage and 77 assets had insurance coverage that was effective for
periods after the date acquired.

FOB identified 38 of the 107 discovered assets after the manual was revised in October
1998. Of these 38 assets, only 5 were properly back dated. Of the remaining discovered
assets, 7 were not listed on NIS as having any type of insurance coverage and 26 assets had
insurance that was effective for periods after the date acquired.

The insurance carrier has agreed to permit back dating insurance coverage to prior policy
periods if FDIC’s request for back dating is made within 60 days of asset discovery and
premiums are paid for the prior periods. The back dating of coverage could be beneficial
to the FDIC because an asset could suffer an uninsured loss during the prior period.
Therefore, FOB’s failure to back date insurance coverage left the FDIC vulnerable to
claim losses for the periods prior to the effective date of insurance coverage for 92 assets.

Although the manual revision has been effective since October 1998, when we discussed
the issue of insuring discovered assets with FOB and Center officials during our exit
conference, there appeared to be some confusion on the part of the FOB official as to the
proper application of the manual’s guidance. Specifically, FOB’s account officer
supervisor expressed confusion over how the insurance policy back dating function
worked within NIS. The account officer supervisor further informed us that efforts to
13
   A discovered asset is an asset for which the FDIC did not previously assume that it held title or
responsibility.


                                                     16
insure a discovered asset are sometimes hampered by delays of up to several months in
obtaining a title opinion and appraisal on which to base insurable interest and value.
Nevertheless, on March 19, 1999, the account officer supervisor sent an electronic
message to FDIC account officers reminding them of provisions in the National
Insurance Manual regarding discovered assets.

Recommendations

We recommend that the Deputy Director of the Field Operations Branch and the
Regional Director of the NESC:

(4) Initiate periodic random sampling of the NIS data to verify the data accuracy and
    identify if further action needs to be taken to ensure data accuracy.

We recommend that the Deputy Director of the Field Operations Branch ensure that
Center and account officer supervisors work closely to:

(5) Modify the National Insurance Manual in collaboration with the broker and carrier to
    assist account officers with asset evaluations for condominium and cooperative units.

(6) Ensure that discovered assets are properly insured in accordance with the revised
    National Insurance Manual.

CORPORATION COMMENTS AND OIG EVALUATION

On August 27, 1999, the DRR Deputy Director, Dallas Field Operations Branch,
provided a written response to a draft of this report. The response is presented in
appendix I of this report. The DRR Deputy Director, Dallas Field Operations Branch,
stated that he agreed with the OIG’s recommendations and had implemented corrective
action for four of the six recommendations. The corrective action related to our
recommendation regarding National Insurance Manual modifications is scheduled to be
completed by December 31, 1999. Corrective action related to our recommendation to
renegotiate the broker fee commensurate with industry standards is scheduled to be
completed by September 30, 1999. DRR’s recent re-negotiation of the broker fee is
anticipated to result in a fee reduction of $115,000 for the 1999/2000 program year.

The Corporation’s response to the draft report provided the elements necessary for
management decisions on the report’s recommendations. Therefore, no further response to
this report is necessary. Nevertheless, we would like to clarify the information provided in
the Corporation’s response to our recommendation to conduct a cost/benefit analysis of risk
management. While the Aon study was part of the DRR Strategic Plan as pointed out in our
report, we did not find any evidence that the study had commenced prior to the initiation of
our audit in November 1998. Aon was not tasked to start the study until February 1999. The
OIG provided Aon our analysis of National Insurance Program data to assist in their
evaluation of the program. Center personnel provided the OIG with a draft copy of the
preliminary study on July 20, 1999. The draft clearly states that additional analysis must be


                                             17
performed before the study is completed. According to Center personnel, the study, when
completed, will be provided to the OIG.

Based on the audit work, the OIG will report funds put to better use of $115,000 in its
Semiannual Report to the Congress.




                                            18
                                                                                Appendix I

                           CORPORATION COMMENTS



                                                                                    FDIC
                                                        DRR, Resolutions and Receiverships
                                                             1910 Pacific Avenue, 17th Floor
                                                                          Dallas, TX 75201
                                                                              214/754-0098


                              MEMORANDUM


TO:                   Shirley Ward
                      Regional Director
                      Office of the Inspector General




FROM:                 A.J. Felton
                      Deputy Director
                      Dallas Field Operations Branch

DATE:                 August 26, 1999

SUBJECT:              National Insurance Center OIG Audit


Please find below recommendations and responses to the subject OIG audit.

RECOMMENDATION: Conduct a cost/benefit analysis of risk management to study the
cost effectiveness of purchasing insurance, establishing a form of self-insurance or non-
insurance. Risk management assessments should address factors such as loss
experience, location and insured value of program assets, and premium rates available
from the carrier marketplace.

RESPONSE: Agreed and corrective action is complete. The DRR Operations Branch
Strategic Plan for 1999 and this OIG recommendation both called for a cost/benefit
analysis contrasting the alternatives of purchased insurance, self-insurance, and non-
insurance. The National Insurance Center commissioned this analysis in 1998 prior to
the OIG audit. The study was completed in June 1999 by AON Services Group, a
nationally recognized risk management firm. A copy of the AON study was provided in
July 1999 by the National Insurance Center to the OIG as a matter of information and to
satisfy this OIG recommendation. (Steve Stockton, 972/761-3204)




                                           19
RECOMMENDATION: Improve tracking and verification of asset forecasts, premiums,
losses, and deductible payment in relation to other insurance expenses. Analysis of
such in-house data would help Center officials react quickly to changing factors that
affect the FDIC’s insurance program.

RESPONSE: Agreed and corrective action is complete. Regular annual actuarial
studies to track and compare trends of asset inventories, premium costs, loss
experience, and deductible payments should be performed as an enabling measure to
aid Field Operations Branch in deciding insurance expenses. This OIG recommendation
was incorporated into the AON study which was completed in July 1999. Similar
actuarial studies will continue to be completed each year. (Steve Stockton, 972/761-
3204)

RECOMMENDATION: Attempt to renegotiate a broker fee that is commensurate with
industry standards.

RESPONSE: Agreed. The Division of Administration, Acquisition Services Branch, at
the request of the National Insurance Center in May 1999, issued a request for
proposals, inviting bids for brokerage services and insurance coverage for the insurance
program year October 1999 through September 2000. The results obtained from this
solicitation are currently being evaluated with a decision expected in September 1999.
(Steve Stockton, 972/761-3204)

RECOMMENDATION: Initiate periodic random sampling of the NIS data to verify the
data accuracy and identify if further action needs to be taken to ensure data accuracy.

RESPONSE: Agreed and corrective action is complete. Account officers and
supervisors were provided a list of assets that needed corrective action. Those
corrective actions were taken and verified. On an ongoing basis, each account officer is
provided a quarterly report to determine if the insured values are accurate and up to
date. (Harry Chance, 972/761-8305)

RECOMMENDATION: Modify the National Insurance Manual in collaboration with the
broker and carrier to assist account officers with asset valuations for condominiums and
cooperative units.




                                           20
RESPONSE: Agreed. The National Insurance Manual contains detailed instructions on
valuing condominiums. This section will be re-addressed and any necessary changes
will be included in the annual revision in the fourth quarter of 1999.

A co-operatives section will be added to the National Insurance Manual. Both subjects
will be addressed in the NIC-hosted training for ORE account officers and managers in
the fourth quarter of 1999. (Steve Stockton, 972/761-3204)


RECOMMENDATION: Ensure that discovered assets are properly insured in accordance
with the revised National Insurance Manual.

RESPONSE: Agreed. Account officers have been advised to add insurance coverage
for discovered assets effective the later of October 1994 or actual date of acquisition.
On a quarterly basis, the Site Insurance Coordinator performs a reconciliation of owned
real estate assets to a schedule of assets actually insured to identify any omissions or
needed corrections. (Harry Chance, 972/761-8305)


cc:    J. Forrestal
       T. O’Keefe
       B. Ostermiller
       R. Hoffman
       A. Rouse
       S. Stockton




                                           21
                                                                                                                              APPENDIX II
                                    MANAGEMENT RESPONSES TO RECOMMENDATIONS
The Inspector General Act of 1978, as amended, requires the OIG to report the status of management decisions on its recommendations in its
semiannual reports to the Congress. To consider FDIC’s responses as management decisions in accordance with the act and related guidance,
several conditions are necessary. First, the response must describe for each recommendation
    § the specific corrective actions already taken, if applicable;
    § corrective actions to be taken together with the expected completion dates for their implementation; and
    § documentation that will confirm completion of corrective actions.
If any recommendation identifies specific monetary benefits, FDIC management must state the amount agreed or disagreed with and the reasons
for any disagreement. In the case of questioned costs, the amount FDIC plans to disallow must be included in management’s response.

If management does not agree that a recommendation should be implemented, it must describe why the recommendation is not considered valid.
Second, the OIG must determine that management’s descriptions of (1) the course of action already taken or proposed and (2) the documentation
confirming completion of corrective actions are responsive to its recommendations.

This table presents the management responses that have been made on recommendations in our report and the status of management decisions.
The information for management decisions is based on management’s written response to our report and subsequent discussions with management
representatives.

                                                                                   Documentation
                                                                     Expected                                            Management
         Rec.               Corrective Action: Taken or                              That Will           Monetary
                                                                    Completion                                           Decision: Yes
        Number                    Planned/Status                                   Confirm Final         Benefits
                                                                       Date                                                 or No
                                                                                      Action

                    A draft of the study was completed in June                        Copy of the
           1                                                          9/30/99                         Not quantifiable         Yes
                    1999.                                                            final analysis

                    Actuarial studies will be completed each                          Copy of the
           2                                                          9/30/99                         Not quantifiable         Yes
                    year.                                                            final analysis




                                                                      22
                                                                   Documentation
                                                       Expected                                           Management
 Rec.           Corrective Action: Taken or                          That Will          Monetary
                                                      Completion                                          Decision: Yes
Number                Planned/Status                               Confirm Final        Benefits
                                                         Date                                                or No
                                                                      Action
                                                                                        $115,000 in
         Brokerage services and insurance coverage
                                                                   Copy of the new    funds that could
  3      are being re-bid in accordance with FDIC      9/30/99                                                Yes
                                                                      contract         be put to better
         policies.
                                                                                             use
                                                                      Copy of a
         A quarterly review of NIS data will be                        recently
  4                                                   Completed                       Not quantifiable        Yes
         conducted.                                                   reviewed
                                                                   quarterly report
         The National Insurance Manual sections for                  Copy of the
  5      condominium and cooperative units will be     12/31/99    revised manual     Not quantifiable        Yes
         revised.                                                      sections
                                                                       Copy of
         Account officers have been advised to                      instruction to
  6      properly add insurance coverage for          Completed    account officers   Not quantifiable        Yes
         discovered assets.                                           has been
                                                                      provided.




                                                       23
